TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Actions Are Needed to Protect Taxpayers’
                      Rights During the Lien Due Process



                                            July 9, 2010

                              Reference Number: 2010-30-072




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


ACTIONS ARE NEEDED TO PROTECT                           given copies of all correspondence issued to the
TAXPAYERS’ RIGHTS DURING THE                            taxpayer. For 8 of the 31 cases in the
LIEN DUE PROCESS                                        statistically valid sample where the taxpayer had
                                                        an authorized representative, the IRS did not
                                                        notify the taxpayer’s representative of the lien
Highlights                                              filing. The IRS does not have an automated
                                                        process that updates taxpayer representative
Final Report issued on July 9, 2010                     information directly to the system that generates
                                                        the lien notices. TIGTA estimated that 60,675
                                                        taxpayer representatives may not have been
Highlights of Reference Number: 2010-30-072
                                                        provided lien notices, resulting in potential
to the Internal Revenue Service Commissioner
                                                        violations of taxpayers’ right to have their
for the Small Business/Self-Employed Division.
                                                        representative notified.
IMPACT ON TAXPAYERS                                     When an initial lien notice is returned
After filing Notices of Federal Tax Lien, the           because it could not be delivered and a
Internal Revenue Service (IRS) must notify the          different address is available for the
affected taxpayers in writing, at their last known      taxpayer, the IRS does not always meet its
address, within 5 business days of the lien             statutory requirement to send the lien notice
filings. However, as noted in previous audits,          to the taxpayer’s last known address.
the IRS has not always complied with this               TIGTA identified three cases for which a new
statutory requirement and did not always follow         lien notice should have been sent to the
its own internal guidelines for notifying taxpayer      taxpayer at the updated address because
representatives of the filing of lien notices.          IRS systems listed the address prior to the
Therefore, some taxpayers’ rights to appeal the         lien filing. The three cases could involve
lien filings may have been jeopardized, and             legal violations because the IRS did not
others may have had their rights violated when          meet its statutory requirement to send lien
the IRS did not notify their representatives of         notices to the taxpayer’s last known address.
the lien filings.
                                                        WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                                 TIGTA recommended that the Director,
TIGTA is required by law to determine annually          Collection, Small Business/Self-Employed
whether lien notices sent by the IRS comply with        Division, consult with the IRS Office of Chief
the legal guidelines in Internal Revenue Code           Counsel to identify any actions necessary to
Section 6320.                                           correct the potential taxpayer violations for the
                                                        untimely lien notices. In addition, the Director,
WHAT TIGTA FOUND                                        Campus Filing and Payment Compliance, Small
                                                        Business/Self-Employed Division, should ensure
TIGTA reviewed a statistically valid sample of
                                                        compliance with undelivered lien notices
125 Federal Tax Liens filed for the 12-month
                                                        procedures.
period ending June 30, 2009, and determined
that the IRS mailed substantially all of the 125 lien   IRS officials agreed with the recommendations
notices in a timely manner, as required by              and are planning corrective actions. ***1*******
Internal Revenue Code Section 6320. These               ******************************1*********************
errors could result in violations of taxpayers’         ***************************************************
rights. TIGTA estimated that 15,169 lien notices        ***************************************************
filed during the same period could have been            TIGTA maintains that the outcome measure in
mailed late.                                            the report is reasonable. ********1**************
                                                        *****************************************************
In addition, the IRS did not always follow its own
                                                        *****************************************************.
regulations for notifying taxpayers’
representatives of the filing of lien notices. IRS
regulations require taxpayer representatives be
                                                   DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    July 9, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Actions Are Needed to Protect Taxpayers’ Rights
                                 During the Lien Due Process (Audit # 201030001)

 This report presents the results of our review to determine whether liens issued by the Internal
 Revenue Service (IRS) comply with legal guidelines set forth in Internal Revenue Code (I.R.C.)
 Section (§) 6320 (a) 1 and related guidance in the Federal Tax Lien Handbook. The Treasury
 Inspector General for Tax Administration is required by law to determine annually whether lien
 notices sent by the IRS comply with the legal guidelines in I.R.C. § 6320. 2 The audit was
 included in our Fiscal Year 2010 Annual Audit Plan and addresses the major management
 challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     I.R.C. § 6320 (Supp. V 1999).
 2
     I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                  Actions Are Needed to Protect Taxpayers’ Rights
                                            During the Lien Due Process




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Lien Notices Were Not Mailed Timely ........................................................Page 4
                    Recommendation 1:........................................................Page 4

          The Internal Revenue Service Did Not Comply With Regulations
          for Notifying Taxpayer Representatives.......................................................Page 5
          Ineffective Working of Undelivered Lien Notices Resulted in
          Potential Violations of Taxpayers’ Rights....................................................Page 7
                    Recommendation 2:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measures...............................................................Page 16
          Appendix V – Synopsis of the Internal Revenue Service Collection
          and Lien Filing Processes .............................................................................Page 18
          Appendix VI – Internal Revenue Service Computer Systems Used
          in the Filing of Notices of Federal Tax Lien……………………………….Page 20
          Appendix VII – Management’s Response to the Draft Report.....................Page 21
         Actions Are Needed to Protect Taxpayers’ Rights
                   During the Lien Due Process




                  Abbreviations

ACS         Automated Collection System
ALS         Automated Lien System
CAF         Centralized Authorization File
FY          Fiscal Year
ICS         Integrated Collection System
IDRS        Integrated Data Retrieval System
I.R.C.      Internal Revenue Code
IRS         Internal Revenue Service
SB/SE       Small Business/Self-Employed
                              Actions Are Needed to Protect Taxpayers’ Rights
                                        During the Lien Due Process




                                             Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face to face with taxpayers. The IRS has
the authority to attach a claim to the taxpayer’s assets for the amount of unpaid tax when the
taxpayer neglects or refuses to pay. 1 This claim is referred to as a Federal Tax Lien. The IRS
files in appropriate local government offices a Notice of Federal Tax Lien 2 (lien notice), which
notifies interested parties that a lien exists.
Since January 19, 1999, Internal Revenue Code Section (I.R.C. §) 6320 3 has required the IRS to
notify taxpayers in writing within 5 business days of the
filing of a Notice of Federal Tax Lien. The IRS is
                                                               The IRS must notify taxpayers
required to notify taxpayers the first time a Notice of
                                                                  in writing of the filing of a
Federal Tax Lien is filed for each tax period. The lien            Federal Tax Lien within
notice, Notice of Federal Tax Lien Filing and Your              5 business days of the filing.
Right to a Hearing Under IRC 6320 4 (Letter 3172), is
used for this purpose and advises taxpayers that they
have 30 calendar days, after that 5-day period, to request a hearing with the IRS Appeals office.
The lien notice indicates the date on which this 30-day period expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax,
administrative appeals available to the taxpayer, and provisions of the law and procedures
relating to the release of liens on property. The lien notice must be given in person, left at the
taxpayer’s home or business, or sent by certified or registered mail to the taxpayer’s last known
address. 5
Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. The IRS Automated Lien System (ALS) generates a certified mail list
which identifies each notice that is to be mailed. The notices and a copy of the certified mail list
are delivered to the United States Postal Service. A Postal Service employee ensures that all
notices are accounted for and date stamps the list and returns a copy to the IRS. The stamped
certified mail list is the only documentation the IRS has that certifies the date on which the


1
  Internal Revenue Code Section 6321 (1994).
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  I.R.C. § 6320 (Supp. V 1999).
4
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
5
  The last known address is that one shown on the most recently filed and properly processed tax return, unless the
IRS received notification of a different address.
                                                                                                             Page 1
                                              Actions Are Needed to Protect Taxpayers’ Rights
                                                        During the Lien Due Process



notices were mailed. A synopsis of the IRS collection and lien filing processes is included in
Appendix V.
Depending on employee access, lien requests can be generated using one of three IRS systems:
1) the Integrated Collection System (ICS), 2) the Automated Collection System (ACS), or
3) the ALS. A description of IRS computer systems used in the filing of lien notices is included
in Appendix VI.
The IRS has increased the number of Federal Tax Liens it has filed to protect the Federal
Government’s interest. As shown in Figure 1, the number of Federal Tax Liens has increased by
236 percent since Fiscal Year (FY) 2000.
                                      Figure 1: Number of Liens Filed From FYs 2000–2009

                            1000000                                                                                             965,618

                             900000
                                                                                                                      768,168
                             800000                                                                         683,659
                             700000
          Number of Liens




                                                                      548,683                     629,813
                             600000                         482,509             534,392 522,887
                             500000               426,166
                             400000     287,517
                             300000
                             200000
                             100000
                                 0
                                       2000       2001      2002      2003      2004   2005       2006      2007      2008      2009
                                                                                Fiscal Years


    Source: IRS Data Books published in FY 2003 (for FYs 2000 to 2003), FY 2007 (for FYs 2004 to 2007), and
    FY 2009 (for FY 2009). 6

The Treasury Inspector General for Tax Administration is required to determine annually
whether, when filing lien notices, the IRS complied with the law regarding the notifications of
affected taxpayers and their representatives. 7 This is our twelfth annual audit to determine
whether the IRS complied with the legal requirements of I.R.C. § 6320 and its own related
internal guidelines for filing lien notices. In prior years, we reported that the IRS had not yet
achieved full compliance with the law and its own internal guidelines. FY 2009 was the first
year our statistically valid sample did not identify any lien notices that were not mailed in a

6
  The IRS Data Book is published annually by the IRS and contains statistical tables and organizational information
on a fiscal year basis.
7
  I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                                                                                                                       Page 2
                                             Actions Are Needed to Protect Taxpayers’ Rights
                                                       During the Lien Due Process



timely manner. However, this year again, we identified potential violations of taxpayer rights
because the IRS did not timely notify taxpayers or their representatives. In addition, our review
of a judgmental sample of undelivered lien notices found potential violations of taxpayer rights
when the IRS did not use the taxpayer’s last known address.
Figure 2 shows the percentages of potential violations of I.R.C. § 6320, by not notifying
taxpayers timely, that were identified during our prior annual audits.
     Figure 2: Potential Violations of Taxpayer Rights Based on I.R.C. § 6320
                         Timely Notification Requirement

                                     8%
          Percentage of Violations




                                     6%
                                          5%       5%       5%

                                     4%
                                                                       3%     3%

                                     2%

                                                                                          0%
                                     0%
                                          2004     2005     2006      2007    2008        2009
                                                             Fiscal Years

        Source: Treasury Inspector General for Tax Administration mandatory lien reports issued during
        FYs 2004–2009.

This review was performed at the Small Business/Self-Employed (SB/SE) Division Office of
Collection Policy in Washington, D.C., and the Centralized Lien Unit in Covington, Kentucky,
during the period September 2009 through March 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                                         Page 3
                          Actions Are Needed to Protect Taxpayers’ Rights
                                    During the Lien Due Process




                                 Results of Review

Lien Notices Were Not Mailed Timely
I.R.C. § 6320 requires the IRS to notify taxpayers in writing, at their last known address, within
5 business days of the filing of a Notice of Federal Tax Lien. We statistically sampled 125 lien
notices from the 948,051 lien notices filed between July 1, 2008, and June 30, 2009. The IRS
timely and correctly mailed the taxpayers’ notices of a lien filing and appeal rights as required by
I.R.C. § 6320 ******************************1***********************************
****************************************************************The majority of
lien notices are sent to taxpayers via certified mail. In order to support the timely notification of
taxpayers, IRS procedures require retention of the date-stamped copy of the certified mail lists
for 10 years after the end of the processing year. *****************1*******************
*****************************************************************************
*****************************************************************************
***************************************************************
Delays in mailing the lien notices can reduce the time taxpayers have to request a hearing to less
than the 30-calendar day period allowed by the law. These errors could result in violations of
taxpayers’ rights if they appeal the filing of the lien notices and the IRS denies the requests for
appeal. We estimate that 15,169 lien notices filed between July 1, 2008, and June 30, 2009,
****1***************.

Recommendation
Recommendation 1: The Director, Collection, SB/SE Division, should consult with the IRS
Office of Chief Counsel to identify any actions necessary to correct the potential legal violations
for the two untimely notices.
       Management’s Response: ********************1************************
       *********************************************************************
       *********************************************************************
       **********************************************************************
       *********************************************************************
       ********************************************************, they believe our
       outcome measure is overstated. They believe the number of taxpayers potentially
       impacted should be reduced from 15,169, as noted in our report, to 7,584, which is less
       than 1 percent of the total.


                                                                                              Page 4
                              Actions Are Needed to Protect Taxpayers’ Rights
                                        During the Lien Due Process



         Office of Audit Comment: We maintain that the outcome measures in the report are
         reasonable. ***************************1********************************
         **********************************************************************
         **********************************************************************
         **********************************************************************
         **********************************************************************
         **********************************************************************
         **********************************************************************
         ***********************************************************************
         **************************.

The Internal Revenue Service Did Not Comply With Regulations for
Notifying Taxpayer Representatives
Taxpayer representative information is contained on the Centralized Authorization File (CAF) 8
that is located on the Integrated Data Retrieval System (IDRS). 9 Using the IDRS, employees can
research the CAF to identify the types of authorization given to taxpayer representatives.
Department of the Treasury regulations (§ 601.506) 10 require that once a taxpayer representative
has been recognized as such, he or she must be given copies of all correspondence issued to the
taxpayer. This applies to all computer or manually generated notices or other written
communications. Employees responsible for making lien filing determinations are to ensure that
all appropriate persons, such as those with a taxpayer’s power of attorney, receive a notice of the
lien filing and the taxpayer’s appeal rights. Specifically, IRS procedures require that a copy of
the notice be sent to the taxpayer’s representative no later than 5 business days after the notice is
sent to the taxpayer 11 when a Notice of Federal Tax Lien is filed.
Our review of the statistically valid sample of 125 liens included 31 taxpayers with
representatives authorized to receive notifications at the time the liens were filed. For 8
(26 percent) of the 31 taxpayers, ALS records did not indicate that the IRS had sent copies of the
lien notices to their representatives. Specifically:
    • ************************1*******************************************
      ********************************************************************


8
  The CAF contains information about the type of authorizations taxpayers have given their representatives for their
tax returns.
9
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
10
   26 Code of Federal Regulations § 601.506.
11
   Failure to give notice or other written communication to the recognized representative of a taxpayer will not affect
the validity of any notice or other written communication delivered to a taxpayer.
                                                                                                              Page 5
                              Actions Are Needed to Protect Taxpayers’ Rights
                                        During the Lien Due Process



         ****************************1***********************************************
         ************************************************************************
     • ************1************************ revenue officers. 12 For three liens, the revenue
       officer obtained taxpayer representative information from the taxpayer but did not ensure
       that the CAF was updated. For the other three liens, the revenue officer did not request
       the representative information on the ICS be sent to the ALS.
Taxpayers might be adversely affected if the IRS does not follow requirements to notify both the
taxpayers and their representatives of the taxpayers’ rights related to liens. We estimate that
60,675 taxpayer representatives may not have been provided lien notices, resulting in potential
violations of the taxpayers’ right to have their representatives notified of the filing of a lien
notice.
In addition to this year’s results, Figure 3 shows the error rates reported on the notification of
taxpayer representatives in our last four reports.
     Figure 3: Error Rates Reported on Notification of Taxpayer Representatives
                          Sampled Lien Cases                   Sampled Lien Cases Not
                        Requiring Representative               Receiving Representative                Error
     Report FY                Notification                           Notification                      Rate
       2006                        45                                     34                            76%
       2007                        25                                     15                            60%
       2008                        30                                     12                            40%
       2009                        27                                     8                             30%
       2010                        31                                     8                             26%
 Source: Prior and current year results of Treasury Inspector General for Tax Administration tests of taxpayer
 representative notification.

While the error rate has been reduced from 76 percent in our FY 2006 report to 26 percent in our
FY 2010 report, the potential for violations still exist in approximately one quarter of all cases
requiring taxpayer representative notification.
In last year’s report, 13 we identified similar conditions and made a recommendation to implement
computer programming enhancements for an automated upload of CAF data to the ALS. The
corrective actions for this recommendation are scheduled to be implemented in August 2010.
Because this change is scheduled to occur after FY 2011’s sample selection, this process will be
evaluated during our FY 2012 statutory review of lien due process procedures.

12
   Employees in the Collection Field function who attempt to contact taxpayers and resolve collection matters that
have not been resolved through notices sent by the IRS campuses or the ACS.
13
   Additional Actions Are Needed to Protect Taxpayers’ Rights During the Lien Due Process (Reference Number
2009-30-089, dated June 16, 2009).
                                                                                                            Page 6
                             Actions Are Needed to Protect Taxpayers’ Rights
                                       During the Lien Due Process



Ineffective Working of Undelivered Lien Notices Resulted in Potential
Violations of Taxpayers’ Rights
IRS procedures require that employees send another lien notice to a new address if 1) the
originally mailed notice is returned as undelivered mail, 2) research confirms the original lien
notice was not sent to the last known address, 3) a different address is available for the taxpayer,
and 4) the address was effective prior to the lien notice filing. SB/SE Division Collection
employees are responsible for certain actions when notices are returned as undeliverable. For
example, they should research the IRS computer system within 5 business days to ensure that the
address on the original lien notice is correct. If the employee cannot find a new address on the
computer system, the undelivered lien notice will be destroyed and a new notice is not issued.
If the address on the notice is not the last known address and a different address was in effect
prior to issuance of the original lien notice, employees should issue a new notice to the better
address. A new notice may be created by using an option in the ALS.
We selected a judgmental sample of 300 undelivered lien notices returned to the Cincinnati
Campus 14 for the period October 20 through October 26, 2009. The sample included only
returned mail identified as undelivered and did not include returned mail identified as refused or
unclaimed. For these 300 notices, we reviewed computer system audit trails to determine
whether IRS employees performed timely research to determine whether the addresses were
correct on the originally mailed notices. Our results showed that the 300 returned notices were
handled by employees as follows:
     •   In 48 (16 percent) of the 300 notices, employees performed the required research within
         5 business days of receipt of the returned notice.
     •   In 252 (84 percent) of the 300 notices, employees did not perform required research of
         the IRS computer system for a different address within 5 business days of receipt of the
         returned notice.
Our test of undelivered lien notices identified 23 of 300 notices in which the address on the IRS
computer system and the original lien notice did not agree. For 20 of the 23 notices, the address
on the IRS computer system was updated after the original lien notice was sent to the taxpayer.
Therefore, no additional action was required. However, for 3 notices (13 percent), the address
was updated prior to the issuance of the original lien notice and, according to IRS procedures, a
new lien notice should have been sent to the taxpayer at the updated address. These cases could
involve potential violations of taxpayer rights because the IRS did not meet its statutory


14
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. We selected the
Cincinnati Campus because the lien notices issued by the SB/SE Division ACS sites returned as undeliverable are
sent there, which provided a sufficient volume of notices from which to select our sample.
                                                                                                         Page 7
                              Actions Are Needed to Protect Taxpayers’ Rights
                                        During the Lien Due Process



requirement of sending each lien notice to the taxpayer’s last known address. For example, in
March 2010, the United States Tax Court 15 dismissed an individual’s petition for review of an
IRS collection action for lack of jurisdiction, finding that the IRS’ lien notice was invalid
because it was not mailed to the individual’s last known address.
Lien notices are not sent to the most current addresses because, in part, user guides and
procedures for the systems that generate lien requests are inconsistent about address verification.
In addition, employees are not always following established procedures for verifying the current
address of the taxpayer prior to preparing a lien request. Specifically, ACS procedures do not
require the user to verify the taxpayer’s name and address prior to preparing a lien. Further, the
ALS does not perform an automated verification of the taxpayer’s last known address prior to
printing the lien notice.
Management advised us that the procedures for requiring the research and resolution of
undelivered lien notices within 5 business days of being received do not pertain to the ACS.
However, there is no exception for the ACS. The procedures provide that all undelivered mail
will be returned to the requesting employee or the office designated the responsibility of
processing undelivered lien notices to be researched and resolved within 5 business days of
receipt. The ACS Support function has been designated by the SB/SE Division to receive all
undelivered lien notices filed by SB/SE Division ACS since the process (address verification of
undelivered lien notices) was decentralized in August 2007. Management also indicated that the
routing of the undelivered lien notices could have contributed to the untimely research of the
undelivered mail. Specifically, all returned mail is received at the Cincinnati Campus where it is
extracted and sorted by mail type. The returned lien notices are routed to ACS Support that is
located in a different building where employees actually perform the research on IRS computer
systems to identify the last known addresses. This routing can delay the processing of the mail,
which could have caused the undelivered mail not to be researched within the required 5 business
days of receipt of the returned notice.
In last year’s report, we identified similar conditions and made a recommendation to implement
computer programming enhancements to include an automated check of a taxpayers’ last known
address prior to the printing of lien notices. The corrective actions pertaining to this
recommendation are scheduled to be implemented in August 2010. Because this change is
scheduled to occur after FY 2011’s sample selection, this process will be evaluated during the
FY 2012 statutory review of the lien due process procedures.




15
  United States Tax Court, filed March 1, 2010, found that the lien notice issued with respect to a taxpayer’s 2002
tax return was not mailed to the taxpayer’s last known address, nor was it received and, therefore, it is invalid.
Consequently, the IRS is required, under the provisions of § 6320 and the accompanying regulations, to issue to the
taxpayer a substitute lien notice and provide him or her with an opportunity to request a lien hearing.
                                                                                                            Page 8
                         Actions Are Needed to Protect Taxpayers’ Rights
                                   During the Lien Due Process



Employees are not following new procedures designed to monitor undeliverable
lien notices
In August 2007, SB/SE Division Collection procedures for handling undelivered lien notices
were revised to return the undelivered lien notice directly to the requesting employee or function.
Employees handling undelivered lien notices were also required to input a specific IDRS
transaction code with an appropriate action code. The transaction code signifies that the lien
notice was returned and the action code indicates the reason (i.e., undelivered, unclaimed, or
refused). These codes are required to be entered into the IDRS after appropriate research of the
returned lien notice is performed.
In August 2009, the ALS was enhanced to perform a weekly systemic extract to send the
appropriate undeliverable status (transaction code and action code) of lien notices to the IDRS
using a specific command. When this command is used to update the status of the lien notice, no
additional input is necessary to update the IDRS. When a lien notice is returned undelivered and
research has been completed regarding an updated address, the employee must go to the lien
notice screen on the ALS and indicate undelivered status.
Our test of undelivered lien notices determined that the IRS is not complying with this
procedure. None of the 300 undelivered lien notices that we sampled had a transaction code or
associated action code input into the IDRS. For our sample, the ALS was not updated with the
status of the undelivered lien notices and, therefore, the upload to the IDRS (via the ALS) did not
occur. As a result, there is no record of the mail status of these lien notices. Management
advised us that the requirements to enter these codes do not apply to the ACS. However, as we
reported previously, the ACS Support function has been designated by the SB/SE Division to
receive all undelivered lien notices that were filed by SB/SE Division ACS since the process
(address verification of undelivered lien notices) was decentralized in August 2007.
Accordingly, the requirement provides that the person designated the responsibility of processing
undelivered lien notices will also check the IDRS for a last known address and request the input
of the transaction code with the appropriate action code or the command code enhancement via
the ALS.
Compliance with these procedures is important because it allows management to review the
handling of undelivered lien notices. Undelivered lien notices are being sent back to more than
450 Collection function groups throughout the country where the employees or functions that
requested the liens are located. The combination of decentralizing the handling of undelivered
lien notices and the failure of employees to update taxpayers’ data in the IDRS resulted in
management’s inability to ensure and enforce the timely resolution of undelivered lien notices.
This situation contributed to the number of undelivered lien notices that were not researched
timely increasing from 33 percent in our FY 2008 report to nearly 83 percent in our FY 2009
report and 84 percent in our FY 2010 report.



                                                                                            Page 9
                             Actions Are Needed to Protect Taxpayers’ Rights
                                       During the Lien Due Process



Further, because employees are not following the procedures to enter the information into the
IDRS, information about undelivered mail is limited to the employees working the undelivered
mail. IRS management, including Accounts Management organization16 employees and even
Centralized Lien Unit employees who have access to the ALS, do not have access to information
on undelivered lien notices. As a result, Taxpayer Assistance Center172 employees would not be
able to answer taxpayer questions about their Federal Tax Liens.
This is the second consecutive year that we reported 100 percent noncompliance with this
procedure. Management was aware of this condition and is currently evaluating the necessity of
the procedure.

Recommendation
Recommendation 2: The Director, Campus Filing and Payment Compliance, SB/SE
Division, should ensure the ACS Support function complies with the procedures for timely
address verification and mail status updates of undelivered lien notices.
        Management’s Response: IRS management agreed with this recommendation.
        The Director, Collection Policy, and the Director, Campus Filing and Payment
        Compliance, will re-evaluate Internal Revenue Manual procedures to ensure they are
        consistent across the functions and support the timely resolution of undeliverable notices.
        In addition, the Director, Collection Policy, will consider the necessity of IDRS status
        indicators for undelivered lien notices and take appropriate action to improve their usage
        or discontinue the procedure.




161
    The Accounts Management organization is responsible for providing taxpayers with information on the status of
their returns, refunds, and for resolving the majority of issues and questions to settle their accounts.
172
    IRS offices with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                         Page 10
                             Actions Are Needed to Protect Taxpayers’ Rights
                                       During the Lien Due Process



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether liens issued by the IRS comply with legal
guidelines set forth in I.R.C. § 6320 (a) 1 and related guidance in the Federal Tax Lien Handbook.
To accomplish the objective, we:
I.      Determined whether taxpayer lien notices related to 125 Federal Tax Liens filed by the
        IRS complied with legal requirements set forth in I.R.C. § 6320 (a) and related internal
        guidelines.
        A. Selected a statistically valid sample of 125 Federal Tax Lien cases from the ALS 2
           extract of the 948,051 liens filed by the IRS nationwide between July 1, 2008, and
           June 30, 2009. We used a statistical sample because we wanted to project the number
           of cases with errors. We used attribute sampling to calculate the minimum sample
           size (n), 3 which we rounded to 125:
              n = (Z2 p(1-p))/(A2)             948,051
              Z = Confidence Level:            95 percent
              p = Expected Rate of Occurrence: 3 percent (last two reports 3%)
              A = Precision Rate:              ±3 percent
        B. Validated the ALS extract by comparing the sampled records to online data from the
           ALS and by reviewing management system evaluations that covered reliability,
           completeness, and accuracy.
        C. Determined whether the sampled liens adhered to legal guidelines regarding timely
           notifications of lien filings to the taxpayer, the taxpayer’s spouse, or business partners
           by reviewing data from the ALS, ICS, ACS, IDRS, and the certified mail list.
        D. Evaluated the controls and procedures established for transferring, storing, and
           safeguarding certified mail lists at the Centralized Case Processing function.
        E. Determined whether taxpayers’ representatives were provided a copy of the lien due
           process notice by reviewing data from the ALS, IDRS, ICS, and ACS.




1
  I.R.C. Section 6320 (Supp. V 1999).
2
  See Appendix VI for descriptions of IRS computer systems used in the filing of Notices of Federal Tax Lien.
3                    2          2
  The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing - The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
                                                                                                         Page 11
                              Actions Are Needed to Protect Taxpayers’ Rights
                                        During the Lien Due Process



             1. Reviewed IDRS screens for CAF indicators (Transaction Code 960) for all
                sampled cases.
             2. Reviewed ALS history screens for accounts with CAF indicators to see if lien
                notices were mailed to taxpayers’ representatives within 5 business days of
                mailing the taxpayer’s notice.
        F. Validated data from the ACS and the ICS by relying on the Treasury Inspector
           General for Tax Administration Data Center Warehouse 4 site procedures that ensure
           that data received from the IRS are valid. The Data Center Warehouse performs
           various procedures to ensure that it receives all the records in the ACS, ICS, and IRS
           databases. In addition, we scanned the data for reasonableness and are satisfied that
           the data are sufficient, complete, and relevant to the review. All the liens identified
           are in the appropriate period, and the data appear to be logical.
        G. Provided all exception cases to the Office of Collection Policy, SB/SE Division, for
           agreement to potential violations and corrective actions if appropriate.
II.     Evaluated the procedures for processing lien notices 5 that are returned as undelivered.
        A. Selected a judgmental sample of 300 unprocessed mail items containing undelivered
           lien notices received during the period October 20 through October 26, 2009, and
           recorded the taxpayer’s name, address, Social Security Number, and serial lien
           identification number. The judgmental sample included only returned mail identified
           as undelivered. The population of returned mail identified as undelivered is unknown
           because the IRS does not record the receipt of undelivered mail. A judgmental
           sample was used for this reason and the test was conducted to show weaknesses for
           which management needed to take corrective action.
        B. Researched the IDRS using command code INOLES and determined whether the
           address on the Master File 6 matched the address on the undelivered lien notice for
           each sampled case.
        C. Reviewed IDRS audit trails and determined whether IRS employees timely performed
           the required IDRS research for resolution of undelivered status for each sampled case.
        D. Reviewed the IDRS and verified whether the Transaction Code 971 and
           corresponding action codes were entered into the IDRS for each sampled case.



4
  A centralized storage and administration of files that provide data and data access services to IRS data.
5
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 12
                         Actions Are Needed to Protect Taxpayers’ Rights
                                   During the Lien Due Process



III.   Determined whether internal guidelines had been implemented or modified since our last
       review by discussing procedures and controls with appropriate IRS personnel in the
       National Headquarters.
IV.    Determined the status of ICS and ACS system enhancements and any problems
       encountered.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SB/SE Division Collection function’s
policies, procedures, and practices for timely notifying taxpayers of lien filings and timely
verifying addresses of undelivered lien notices. We evaluated these controls by interviewing
management and reviewing samples of lien notices sent to taxpayers and lien notices returned to
the IRS as undelivered.




                                                                                         Page 13
                       Actions Are Needed to Protect Taxpayers’ Rights
                                 During the Lien Due Process



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy Greiner, Audit Manager
Richard Viscusi, Lead Auditor
Curtis Kirschner, Senior Auditor
Meaghan Tocco, Senior Auditor
Janis Zuika, Senior Auditor
Stephen Elix, Auditor
Frank Maletta, Auditor
Charles Nall, Auditor
Niurka Thomas, Auditor
Kevin O’Gallagher, Information Technology Specialist




                                                                                      Page 14
                       Actions Are Needed to Protect Taxpayers’ Rights
                                 During the Lien Due Process



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
National Taxpayer Advocate
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 15
                             Actions Are Needed to Protect Taxpayers’ Rights
                                       During the Lien Due Process



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our corrective actions
will have on tax administration. These benefits will be incorporated into our Semiannual Report
to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 15,169 taxpayers may not have been provided
    Notices of Federal Tax Lien and Your Right to a Hearing Under I.R.C. Section 6320
    (Letter 3172), 1 resulting in potential violations of taxpayers’ rights (see page 4).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 125 Federal Tax Lien cases, *******1*****************
****************************************************************************
****************************** The sample was selected based on a confidence level of
95 percent, a precision rate of ±3 percent, and an expected rate of occurrence of 3 percent. We
projected the findings to the total population provided by the IRS of 948,051 Notices of Federal
Tax Lien generated by the ALS between July 1, 2008, and June 30, 2009.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 60,675 taxpayer representatives may not have
    been provided Notices of Federal Tax Lien and Your Right to a Hearing Under I.R.C.
    Section 6320 (Letter 3172), resulting in potential violations of taxpayers’ rights (see page 5).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 125 Federal Tax Lien cases, we identified 8 (6.4 percent) of
125 cases for which IRS employees did not provide notice to taxpayer representatives, resulting
in potential violations of taxpayers’ rights. In the eight cases, the ALS record did not indicate
that the IRS had sent copies of the lien notices to the representatives. The sample was selected
based on a confidence level of 95 percent, a precision rate of ±3 percent, and an expected rate of
occurrence of 3 percent. We projected the findings to the total population provided by the IRS of



1
 Notice of Federal Tax Lien Filing and Your Right to a Hearing Under I.R.C. 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                       Page 16
                         Actions Are Needed to Protect Taxpayers’ Rights
                                   During the Lien Due Process



948,051 Notices of Federal Tax Lien generated by the ALS between July 1, 2008, and
June 30, 2009.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; three taxpayers were not provided Letters 3172,
    resulting in potential legal violations of taxpayers’ rights (see page 7).

Methodology Used to Measure the Reported Benefit:
In a judgmental sample of 300 undelivered lien notices, we determined that the IRS did not send
notices to the updated addresses of 3 taxpayers. Taxpayer rights could be affected because a
taxpayer not receiving a notice or receiving a late notice might be unaware of the right to appeal
or might receive less than the 30-calendar day period allowed by the law to request a hearing. In
addition, taxpayer rights could be further affected when the taxpayer appeals the filing of the lien
and the IRS denies the request for the appeal.




                                                                                            Page 17
                             Actions Are Needed to Protect Taxpayers’ Rights
                                       During the Lien Due Process



                                                                                                Appendix V

             Synopsis of the Internal Revenue Service
               Collection and Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. IRS computer systems are
programmed to mail these notices when certain criteria are met. If the taxpayer does not respond
to these notices, the account is transferred for either personal or telephone contact.
    •   IRS employees who make personal (face-to-face) contact with taxpayers are called
        revenue officers and work in various locations. The ICS 1 is used in most of these
        locations to track collection actions taken on taxpayer accounts.
    •   IRS employees who make only telephone contact with taxpayers work in call sites in
        Customer Service offices. The ACS is used in the call sites to track collection actions
        taken on taxpayer accounts.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a lien by sending a Notice of Federal Tax Lien2 to
appropriate local government offices. Liens protect the Federal Government’s interest by
attaching a claim to the taxpayer’s assets for the amount of unpaid tax. The right to file a Notice
of Federal Tax Lien is created by I.R.C. § 6321 (1994) when:
    •   The IRS has made an assessment and given the taxpayer notice of the assessment, stating
        the amount of the tax liability and demanding payment.
    •   The taxpayer has neglected or refused to pay the amount within 10 calendar days after the
        notice and demand for payment.
When designated employees request the filing of a Notice of Federal Tax Lien using either the
ICS or the ACS, the ALS processes the lien filing requests from both Systems. In an expedited
situation, employees can manually prepare the Notice of Federal Tax Lien. Even for manually
prepared liens, the ALS controls and tracks the liens and initiates subsequent lien notices 3 to
notify responsible parties of the lien filings and of their appeal rights. The ALS maintains an


1
  See Appendix VI for detailed descriptions of IRS computer systems used in the filing of Notices of Federal Tax
Lien.
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                          Page 18
                         Actions Are Needed to Protect Taxpayers’ Rights
                                   During the Lien Due Process



electronic database of all open Notices of Federal Tax Lien and updates the IRS’ primary
computer records to indicate that a Notice of Federal Tax Lien has been filed.
Most lien notices are mailed to taxpayers by certified or registered mail, rather than delivered in
person. To maintain a record of the notices, the IRS prepares a certified mail list
(United States Postal Service Form 3877), which identifies each notice that is to be mailed. The
notices and a copy of the certified mail list are delivered to the United States Postal Service. A
United States Postal Service employee ensures that all notices are accounted for, date stamps the
list, and returns a copy to the IRS. The stamped certified mail list is the only documentation the
IRS has that certifies the date on which the notices were mailed. IRS guidelines require that the
stamped certified mail list be retained for 10 years after the end of the processing year.




                                                                                           Page 19
                             Actions Are Needed to Protect Taxpayers’ Rights
                                       During the Lien Due Process



                                                                                              Appendix VI

Internal Revenue Service Computer Systems Used in
      the Filing of Notices of Federal Tax Lien

The Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance-due accounts and return delinquency investigations. ACS function employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the ALS, which generates the Notices of Federal Tax Lien 1 and related lien
notices and updates the IRS’ primary computer files to indicate that Notices of Federal Tax Lien
have been filed.
The Automated Lien System (ALS) is a comprehensive database that prints Notices of Federal
Tax Lien and lien notices, stores taxpayer information, and documents all lien activity. Lien
activities on both ACS and ICS cases are controlled on the ALS by Technical Support or Case
Processing functions at the Cincinnati, Ohio, Campus. 2 Employees at the Cincinnati Campus
process Notices of Federal Tax Lien and lien notices and respond to taxpayer inquiries using the
ALS.
The Integrated Collection System (ICS) is an IRS computer system with applications designed
around each of the main collection tasks such as opening a case, assigning a case, building a
case, performing collection activity, and closing a case. The ICS is designed to provide
management information, create and maintain case histories, generate documents, and allow
online approval of case actions. Lien requests made using the ICS are uploaded to the ALS. The
ALS generates the Notices of Federal Tax Lien and related lien notices and updates the IRS’
primary computer files to indicate Notices of Federal Tax Lien have been filed.
The Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system
that processes transactions entered from terminals located in campuses and other IRS locations.
It enables employees to perform such tasks as researching account information, requesting tax
returns, entering collection information, and generating collection documents. The IDRS serves
as a link from campuses and other IRS locations to the Master File 3 for the IRS to maintain
accurate records of activity on taxpayers’ accounts.



1
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
2
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                        Page 20
